App. 2
FACTS
Reuben Smith owns a hydraulic equipment busi­
ness in Woodinville. The business includes yard space
that Smith periodically rents to tenants to store ma­
chinery and equipment.
In September 2015, Nsejjere approached Smith to
rent storage space to park five container trucks begin­
ning in “late October, early November.” Nsejjere told
Smith he planned to store the trucks in the yard “for
two or three months and then drive them away.” The
two orally agreed on a rental payment of $800 per
month for approximately 5,000 square feet of storage
space.
Nsejjere did not bring the trucks to Smith’s yard
until December 2015. When he did, he paid Smith
$2,400, representing rental payments for December
through February.1 Nsejjere told Smith “he had some
issues with the Port, and they would not allow him to
leave the material in the containers.” Nsejjere asked if
Smith could unload the containers so that he could re­
turn them.
The equipment in the containers, which Nsejjere
planned to use for a residential development project,
was very large and heavy. Smith also noted that the
1 At trial, Smith testified that Nsejjere did not make the pay­
ment until February 2016. Nsejjere contended that he paid Smith
in December 2015. Though the exact date Nsejjere made this pay­
ment is immaterial to the resolution of this appeal, an e-mail
Smith sent Nsejjere in May 2017 supports Nsejjere’s version of
events.

App. 3
equipment was not protected by any packing materials
and some of it had become damaged in transit. Smith
told Nsejjere “it was going to cost him, and probably a
lot more than he expected.” Nsejjere agreed to pay
Smith to unload the trucks and agreed that the addi­
tional costs could be charged as rent. Smith sent
Nsejjere an invoice for $8,000 for the labor, equipment,
and fuel used in unloading the equipment.2
Nsejjere frequently came to the yard, sometimes
twice a day, to look at the equipment. He repeatedly
acknowledged that he owed Smith money. But he never
removed the equipment from Smith’s yard and never
made any further rent payments. Nor did he ever pay
Smith for the unloading costs. Nsejjere’s equipment re­
mains on Smith’s property.
On April 24, 2017, Smith sent Nsejjere an e-mail
stating that Smith would eliminate late fees if Nsejjere
paid the accrued rent. On May 19, 2017, Smith sent
Nsejjere another e-mail informing him that he could
not come onto the property until he paid his rent. On
July 12, 2017, Smith served Nsejjere with a three-day
notice to pay or vacate.
On August 1, 2017, Smith filed an unlawful de­
tainer action. Nsejjere filed an answer denying Smith’s
claims and asserting that “that the relationship be­
tween the parties is and has been that of a bailee and
a bailor.” Nsejjere also filed a counterclaim against
Smith for negligence and breach of a bailment
2 Nsejjere does not dispute this amount.

App. 4
contract. In addition, Nsejjere served Smith with inter­
rogatories, requests for admission and requests for
production. Smith did not respond to the discovery re­
quests.
A superior court commissioner set the matter for
trial, finding that there were disputed issues of mate­
rial fact because the parties did not have a written
lease. On February 8, 2018, the trial court held a oneday bench trial at which it heard testimony from both
Smith and Nsejjere. The trial court entered findings of
fact and conclusions of law, and ordered that Smith
was entitled to a writ of restitution and a judgment
in the amount of $40,800. The trial court dismissed
Nsejjere’s counterclaims, concluding that it did not
have jurisdiction to address them. The trial denied
Nsejjere’s motion for reconsideration. Nsejjere appeals.
DISCUSSION
An unlawful detainer action brought under RCW
59.12.030 is a summary proceeding designed to enable
the recovery of possession of leased property.3 Munden
v. Hazelrigg. 105 Wn.2d 39, 45, 711 P.2d 295 (1985).
“The action is a narrow one, limited to the question of
3 A tenant has committed an unlawful detainer “[w]hen he
or she, having leased property for an indefinite time with monthly
or other periodic rent reserved, continues in possession thereof,
in person or by subtenant, after the end of any such month or
period, when the landlord, more than twenty days prior to the end
of such month or period, has served notice (in manner in RCW
59.12.040 provided) requiring him or her to quit the premises at
the expiration of such month or period.” RCW 59.12.030(2).

App. 5
possession and related issues such as restitution of the
premises and rent.” Munden. 105 Wn.2d at 45. “[T]he
court sits as a special statutory tribunal to summarily
decide the issues authorized by statute and not as a
court of general jurisdiction with the power to hear and
determine other issues.” Granat v. Keasler. 99 Wn.2d
564, 571, 663 P.2d 830 (1983) (emphasis omitted).
Nsejjere claims that the trial court lacked jurisdic­
tion to hear the case as an unlawful detainer proceed­
ing because his relationship with Smith was that of a
bailor and a bailee, not a tenant and a landlord. This
claim is unsupported by the record.
A bailment is “[a] delivery of personal property
by one person (the bailor) to another (the bailee) who
holds the property for a certain purpose.” Black’s Law
Dictionary 169 (10th ed. 2014). In contrast, a lease is
“[a] contract by which a rightful possessor of real prop­
erty conveys the right to use and occupy the property
in exchange for consideration.” Black’s, supra, at 1024.
Here, the trial court found Nsejjere’s claim of a
bailment relationship to be unavailing.
Mr. Nsejjere had orally agreed to store five
tractor trailer containers on plaintiff’s prop­
erty for two to three months. He instead
caused that contract to be converted to one in
which only the goods, not the containers, were
left on the property. Whether the items were
inside or outside of a container truck does
not change the nature of the oral contract.
Plaintiff only agreed to lease Mr. Nsejjere
space for his property. The actions which

App. 6
caused Mr. Nsejjere to remove his property
from the containers
and leave the contents
\
unprotected and in the elements for many
months does not convert the parties’ storage
space agreement into a bailment. Addition­
ally, Mr. Nsejjere behaved as a tenant by com­
ing and going from the property at will from
December, 2015 to May, 2017. Mr. Smith’s
statement that Mr. Nsejjere was disinvited
from the property until he brought his rent
current muddled the position of the parties. It
did so because a landlord may not dispossess
a tenant from property in that way. However,
the court concludes that while Mr. Smith’s
ill-advised effort to get paid the rent he was
due was communicated to Mr. Nsejjere, Mr.
Nsejjere neither acted on it nor was influ­
enced by it (except to the extent that he
stopped visiting the materials). Within two
months, Mr. Smith caused Mr. Nsejjere to be
served with the three day notice to pay or va­
cate, the beginning of this enforceable unlaw­
ful detainer action.
(Footnote omitted.)
We agree with the trial court. Nsejjere did not
merely leave the equipment for Smith to hold. Instead,
the evidence shows that Nsejjere rented a defined
amount of yard space from Smith for the purpose of
storing his equipment.4 The relationship between
Nsejjere and Smith was that of a tenant and a
4 Two of Smith’s other tenants also testified at trial that they
rented space from Smith by the square foot.

App.7
landlord.5 And Nsejjere provides no authority in sup­
port of his claim that Smith unilaterally converted the
relationship into a bailment by telling Nsejjere he was
prohibited from coming onto the property until he paid
the rent. The matter was properly filed as an unlawful
detainer action. See, e.g.. Reeder v. Harmeling. 75
Wn.2d 499,499-500,451 P.2d 920 (1969) (a writ of res­
titution pursuant to RCW 59.12 is the proper remedy
for removing another’s property and regaining use of
the premises).
Nsejjere contends that the trial court erred in dis­
missing his counterclaims. Due to the summary nature
of an unlawful detainer action, counterclaims are gen­
erally disallowed. Munden. 105 Wn.2d at 45. The ex­
ception is when a counterclaim or affirmative defense
is “‘based on facts which excuse a tenant’s breach. 5
Munden. 105 Wn.2d at 45 (quoting First Union Mgmt..
Inc, v. Slack. 36 Wn. App. 849,854,679 P.2d 936 (1984)).
In the alternative, once “the right to possession ceases
to be at issue . . . the proceeding may be converted into
an ordinary civil suit for damages, and the parties may
then properly assert any cross claims, counterclaims,
and affirmative defenses.” Munden. 105 Wn.2d at 4546.

5 Nsejjere cites to Smith’s April 24, 2017, e-mail to him,
which states, “You are not a tenant; rather you are renting space.
As such, the condition of your materials remains you [sic] respon­
sibility. This agreement is the same as renting a storage unit or
even renting a space in a garage for a vehicle.” (Emphasis added.)
But Smith’s inartful language is not conclusive of the parties’ re­
lationship.

App. 8
Here, Nsejjere’s counterclaims did not excuse his
obligation to pay rent. And because Nsejjere’s equipment
was still on Smith’s property at the time of trial, the
right to possession remained at issue. The trial court
was precluded from considering Nsejjere’s counter­
claims.6
Nsejjere argues that the trial court erred in failing
to order that his requests for admission be deemed ad­
mitted. Requests for admissions are deemed admitted
against a party who fails to serve responses or objec­
tions to the requests within 30 days, unless the court
orders otherwise. CR 36(a), (b). But the record shows
that over Smith’s objections, the trial court permitted
Nsejjere to read the requests for admission into evi­
dence. And in any event, none of the admissions would
have defeated an unlawful detainer action.7

6 In support of this claim, Nsejjere cites two cases in which
courts have permitted counterclaims, Foisv v. Wyman. 83 Wn.2d
22, 515 P.2d 160 (1973), and Income Prons. Inv. Corp. v. Trefethen.
155 Wash. 493, 284 P. 782 (1930). But these cases involved
counterclaims for damages for breach of the implied warranty
of habitability or covenant of quiet enjoyment, facts which ex­
cused the tenants’ breaches because they were deprived of the
beneficial use of the property.
7 Nsejjere’s requests for admission primarily sought to estab­
lish that Smith did not possess any written evidence of a lease, a
fact that was undisputed by the parties. Only request for admis­
sion 8 has any bearing on an unlawful detainer action: “Admit
that SMITH acknowledged payment from Nsejjere immediately
upon SMITH’S RECEIPT of the goods.” But even such an admis­
sion would not contradict Smith’s claim that Nsejjere did not pay
any rent after February 2016.

App. 9
Nsejjere next contends that Smith’s refusal to re­
spond to his other discovery requests violated due
process. But Nsejjere’s remedy was to file a motion to
compel discovery in the trial court, or a motion to
continue the trial until discovery could be obtained.
Nsejjere did not do so, nor did he comply with the dis­
covery conference requirements of CR 26(i).8 Thus,
Nsejjere has waived this claim.
Finally, Nsejjere contends that the trial court erred
in denying his CR 59 motion for reconsideration. We
review the denial of a CR 59 motion for reconsideration
for an abuse of discretion. Millies v. LandAmerica
Transnation. 185 Wn.2d 302, 316, 372 P.3d 111 (2016).
A trial court abuses its discretion when its decision
is manifestly unreasonable, or based on untenable
grounds, or exercised for untenable reasons. Maver v.
Sto Indus.. Inc.. 156 Wn.2d 677, 684, 132 R3d 115
(2006).

1 CR 26(i) provides:
The court will not entertain any motion or objection
with respect to rules 26 through 37 unless counsel have
conferred with respect to the motion or objection. Coun­
sel for the moving or objecting party shall arrange for
a mutually convenient conference in person or by tele­
phone. If the court finds that counsel for any party,
upon whom a motion or objection in respect to matters
covered by such rules has been served, has willfully re­
fused or failed to confer in good faith, the court may
apply the sanctions provided under rule 37(b). Any
motion seeking an order to compel discovery or obtain
protection shall include counsel’s certification that the
conference requirements of this rule have been met.

App. 10
Citing CR 59(a)(7), CR 59(a)(8), and CR 59(a)(9),
Nsejjere argues that he was entitled to reconsideration
of the judgment because Smith committed perjury
at trial.9 He contends that Smith’s testimony that
he never prevented Nsejjere from coming onto the
property was contradicted by Smith’s May 19, 2017,
e-mail. But the sole purpose of an unlawful de­
tainer action is to determine the right of possession.
First Union Mgmt.. 36 Wn. App. at 854. While
Nsejjere’s claim that Smith barred him from the
property would arguably be relevant to a defense of
constructive eviction, Nsejjere did not raise this de­
fense. Nsejjere does not demonstrate that the trial
court abused its discretion in denying his motion for
reconsideration.
Smith requests attorney fees pursuant to RAP
18.9 on the grounds that Nsejjere’s appeal is frivolous.
An appeal is frivolous “if it raises no debatable issues
on which reasonable minds might differ and it is so
totally devoid of merit that no reasonable possibility of
reversal exists.” Protect the Peninsula’s Future v. City
of Port Angeles. 175 Wn. App. 201, 220, 304 P.3d 914
(2013). Here, although Nsejjere’s claims lack merit,

9 CR 59(a)(7) allows the trial court to order a new trial where
“there is no evidence or reasonable inference from the evidence to
justify the verdict.” A motion for a new trial may be granted under
CR 59(a)(8) if an error in law occurred at trial and was “objected
to at the time by the party making the application.” CR 59(a)(9)
allows a trial court to grant a new trial when “substantial justice
has not been done.”

App. 11
they are not frivolous. We deny Smith’s request for
attorney fees.
Affirmed.
/s/ [Illegible]
WE CONCUR:
/s/ Andrus, J.

/s/ Mann, ACJ

App. 12
APPENDIX B
IN THE SUPERIOR COURT
OF THE STATE OF WASHINGTON
IN AND FOR SNOHOMISH COUNTY
REUBEN SMITH and
ADEN SMITH,
Plaintiffs,
vs.

Case No.:
17-2-07633-31
[(PROPOSED /s/ [Illegible]]
JUDGMENT IN FAVOR
OF PLAINTIFF AND
ORDER FOR WRIT
OF RESTITUTION

ISAAC M. NSEJJERE
aka ISAAC MAYANJA,
and JANE DOE NSEJJERE
aka JANE DOE MAYANJA (Clerk’s Action Required)
husband and wife, and the
marital community comprised
thereof; NSEJJERE SPORTS,
LLC, a Delaware Limited
Liability Company,
Defendant(s).
JUDGMENT SUMMARY

Legal Description: THE EAST 435.60 FEET OF
THE SOUTH 200 FEET OF THE NORTH 800
FEET OF THE NORTHEAST QUARTER OF THE
NORTHEAST QUARTER OF SECTION 34,
TOWNSHIP 27 NORTH, RANGE 5 EAST, W.M.
IN SNOHOMISH COUNTY, WASHINGTON;
EXCEPT THAT PORTION THEREOF LYING
WITHIN STATE HIGHWAY 1-A; SITUATE IN
THE COUNTY OF SNOHOMISH, STATE OF
WASHINGTON.

App. 13
Tax Parcel Number: 27-0534-001-003-00
1. Judgment Creditor:
2. Attorney for
Judgment Creditor:
3. Judgment Debtors:

4. Principal Judgment
Amount

REUBEN SMITH and
ADEN SMITH
Dimension Law Group
PLLC
ISAAC M. NSEJJERE aka
ISAAC MAYANJA, and
JANE DOE NSEJJERE
aka JANE DOE
MAYANJA, husband and
wife,
$40,800.00

TOTAL JUDGMENTS: $40.800.00
PRINCIPAL JUDGMENT AND COST SHALL
BEAR AN INTEREST RATE OF TWELVE (12%)
PER ANNUM UNTIL PAID IN FULL.
Trial in this unlawful detainer action was held on
February 8, 2018. Plaintiffs Reuben Smith and Aden
Smith (“Smiths”) appeared through Danielle Flatt and
Dimension Law Group, PLLC. Defendants Isaac M.
Nsejjere aka Isaac Mayanja, and Jane Doe Nsejjere
aka Jane Doe Mayanja (“Nsejjere”), appeared pro se.
Nsejjere Sports LLC did not appear.
This Court considered:
(1) The oral argument of counsel for the Smiths;
(2) The comments of Defendant Nsejjere;

App. 14
(3) The testimony of Douglas Almond, Byron
Gibbs, Bruce Niemeyer, and Reuben Smith;
(4) Trial Exhibits 1-10; and
(5) Smiths’ Trial Memorandum.
ORDER & JUDGMENT
The Court having made and entered its Findings
of Fact and Conclusions of Law on March 7, 2018, a
true and correct copy of which is attached and incorpo­
rated by reference herein, NOW, THEREFORE, IT IS
HEREBY ORDERED, ADJUGDED, AND DECREED
as follows:
1. Defendants’ Counterclaims and Cross Com­
plaint is dismissed without prejudice.
2. Defendant Nsejjere Sports, LLC is dismissed
as a party to this action as there is no evidence Nsejjere
Sports was a party to the lease.
3. Defendant is guilty of unlawful detainer and
the tenancy of the defendant in the described premises
is hereby terminated. All remaining claims brought by
both Plaintiff and Defendant under this cause number
are dismissed;
4. The Clerk of the court shall issue a Writ of
Restitution immediately forthwith, returnable twenty
days after date of issuance, restoring to plaintiff pos­
session of property described as 23004 State Route 9
SE, Woodinville, WA, Snohomish County, provided
that if return is not possible within 20 days, the return

App. 15
on this writ shall be automatically extended for a sec­
ond 20-day period. The Writ shall direct the sheriff to
remove the defendant and all others occupying the
property. The writ shall also authorize the sheriff to
break and enter as necessary.
5. If Defendant(s) do not voluntarily vacate the
premises within the [three /s/ [Illegible]] five days re­
quired pursuant to RCW 59.12.[000 170 /s/ [Illegible]];
then Plaintiff may deem all property abandoned imme­
diately after the Snohomish County Sheriff executes
the writ of restitution and performs the physical evic­
tion. [BECAUSE THIS ACTION IS NOT SUBJECT
TO THE RESIDENTIAL LANDLORD-TENANT ACT,
/s/ [Illegible]] Plaintiff shall not be required to store
Defendant(s) personal property pursuant to RCW
59.18.312 and/or beyond the time of physical eviction.
6. Plaintiff is awarded judgment against the De­
fendants) as summarized above.
DONE IN OPEN COURT this March 26. 2018.
/s/ [Illegible]
Court Commissioner [JUDGE]
Presented by:
DIMENSION LAW GROUP, PLLC
/s/ Synthia Melton
Synthia Melton, WSBA # 45593
Attorney for Plaintiffs
Reuben Smith & Aden Smith

App. 16
Reviewed by:
Defendants
/s/

[Illegible]
Isaac Nsejjere aka Isaac Mayanja

App. 17
APPENDIX C
THE SUPREME COURT OF WASHINGTON
REUBEN and ADEN SMITH, )
Respondents,
v.

ISAAC M. NSEJJERE
aka MAYANJA, et al,

)
)
)
)

)
)

No. 97339-3
ORDER
(Filed Oct. 3, 2019)
Court of Appeals
No. 78323-8-1

Petitioners.
Department II of the Court, composed of Chief
Justice Fairhurst and Justices Madsen, Stephens,
Gonzalez and Yu, considered at its October 2,2019, Mo­
tion Calendar whether review should be granted pur­
suant to RAP 13.4(b) and unanimously agreed that the
following order be entered.
IT IS ORDERED:
That the petition for review is denied.
DATED at Olympia, Washington, this 3rd day of
October, 2019.
For the Court
/s/

Fairhurst, C.J.
CHIEF JUSTICE

RECEIVED
DEC V 2019

gBsgjsiaffi.

